      Department of Homeland Security




       Annual Review of the United States Coast Guard’s
                Mission Performance (FY 2011)




OIG-12-119                                  September 2012

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                         SEP 1 3 2012

MEMORANDUM FOR:                 Stephen P. Metruck
                                Assistant Commandant for Resources and
                                Chief Financial Officer
                                United States Coast Guard

FROM:                           Anne L. Richards      ~UL
                                Assistant Inspector General for Audits

SUBJECT:	                       Annual Review of the United States Coast Guard's Mission
                                Performance (FY 2011)

Attached is our final report, Annual Review of the United States Coast Guard's Mission
Performance (FY 2011). We incorporated the formal comments from the United States
Coast Guard in the final report. The report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Review ................................................................................................................ 3 


              Resource Hours for Non-Homeland Security and Homeland Security Missions.... 3
              The USCG’s Mission Performance .......................................................................... 5
              FY 2011 Budget Information .................................................................................. 6
              Management Comments and OIG Analysis ............................................................ 6



   Appendixes
              Appendix A:         Objectives, Scope, and Methodology .............................................. 7 

              Appendix B:         Management Comments to the Draft Report ................................. 9 

              Appendix C:         Non-Homeland Security Missions.................................................. 10 

              Appendix D:         Homeland Security Missions .......................................................... 20 

              Appendix E:         FY 2011 Performance Measure Summary ..................................... 30

              Appendix F:         Major Contributors to This Report................................................. 31 

              Appendix G:         Report Distribution......................................................................... 32 


   Abbreviations
              DHS                   Department of Homeland Security
              FY                    fiscal year
              GAO                   Government Accountability Office
              OIG                   Office of Inspector General
              USCG                  United States Coast Guard




www.oig.dhs.gov                                                                                                               OIG-12-119
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
This report presents our annual review of the United States Coast Guard’s (USCG’s) mission
performance, as required by the Homeland Security Act of 2002. The Act defines the
USCG’s 11 statutory missions as either non-homeland security missions (marine safety,
marine environmental protection, search and rescue, aids-to-navigation, living marine
resources, and ice operations) or homeland security missions (ports, waterways, and coastal
security; drug interdiction; migrant interdiction; defense readiness; and other law
enforcement). The Act also prohibits the Secretary from substantially reducing any of the
USCG’s missions after its transfer to the Department of Homeland Security (DHS).

The objective of this review was to determine the extent to which the USCG is maintaining
its historical level of effort on non-homeland security missions. To address our objective,
we reviewed the resource hours the USCG used to perform its various missions. We also
reviewed the USCG’s performance measures and results for each non-homeland security
and homeland security mission. We did not verify the accuracy of the USCG-provided data.

In fiscal year 2011, the USCG dedicated approximately 4 percent more resource hours to
homeland security missions than non-homeland security missions. Fiscal year 2011
homeland security mission resource hours totaled 355,586, while non-homeland
security mission resource hours totaled 328,008. Homeland security mission resource
hours decreased by approximately 0.5 percent from fiscal year 2010, and remained
approximately 91 percent above the baseline. Non-homeland security mission resource
hours decreased by approximately 7 percent from fiscal year 2010 and were
approximately 10 percent above the baseline.

The USCG reported that it met or exceeded 14 of 23 summary performance measures in
FY 2011. This includes 9 of 12 non-homeland security performance measures and 5 of
11 homeland security performance measures. In FY 2011, the USCG budgeted
approximately the same percentage of its funding for non-homeland security missions
(49.6 percent) as homeland security missions (50.4 percent).

This report contains no recommendations.




www.oig.dhs.gov                            1                                     OIG-12-119
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Background
Section 888 of the Homeland Security Act of 2002, Public Law 107-296, dated November
25, 2002, directs the Inspector General to conduct an annual review that assesses the
performance of all USCG missions, with a particular emphasis on non-homeland security
missions. The Act defines the USCG’s 11 statutory missions as either non-homeland
security missions or homeland security missions, and prohibits the Secretary of
Homeland Security from substantially or significantly reducing any of the USCG’s
missions or its capability to perform those missions. Table 1 depicts the USCG’s 11
statutory missions and the alignment of those missions with USCG programs.

  Table 1. Alignment of USCG Programs with Statutory Non-Homeland Security and 

                           Homeland Security Missions

 Non-Homeland Security Missions                Alignment with USCG Programs
     1. Living Marine Resources                Maritime Law Enforcement
     2. Marine Safety                          Maritime Prevention
                                               Maritime Response
     3. Marine Environmental Protection
                                               Maritime Prevention
     4. Search and Rescue                      Maritime Response
     5. Aids-to-Navigation                     Marine Transportation System Management
     6. Ice Operations                         Marine Transportation System Management
 Homeland Security Missions                    Alignment with USCG Programs
     1. Ports, Waterways, and Coastal          Maritime Security Operations
        Security                               Maritime Prevention
     2. Drug Interdiction                      Maritime Law Enforcement
     3. Migrant Interdiction                   Maritime Law Enforcement
     4. Defense Readiness                      Defense Operations
     5. Other Law Enforcement                  Maritime Law Enforcement
Source: DHS Office of Inspector General (OIG) based on USCG-provided data

The USCG uses resource hours—generally, the number of flight hours (for aircraft) and
underway hours (for boats and cutters) used to carry out a specific mission—to
determine the amount of time expended on each of its non-homeland security and
homeland security missions. We compared the total number of resource hours
reported by the USCG from a baseline of pre-September 11, 2001 data, through fiscal
year (FY) 2011. The USCG–calculated baseline is an annual average of resource hours
based on eight FY quarters preceding September 11, 2001. We did not verify the
resource hour data reported by the USCG, nor did we validate whether the USCG
accurately classified resource hours used for each mission. We assessed total resource
hours for the 11 individual missions in order to identify the changes in each.


www.oig.dhs.gov                                  2                                OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Results of Review
Our review of USCG-provided data indicated that in FY 2011, the USCG dedicated
approximately 4 percent more resource hours to homeland security missions than non-
homeland security missions. FY 2011 homeland security mission resource hours totaled
355,586, while non-homeland security mission resource hours totaled 328,008. FY 2011
homeland security mission resource hours decreased by approximately 0.5 percent from
FY 2010, and remained approximately 91 percent above the baseline. Non-homeland
security mission resource hours decreased by approximately 7 percent from FY 2010
and were approximately 10 percent above the baseline. The total number of resource
hours for all missions has continued to decline since FY 2006. The USCG reported that it
met or exceeded 14 of 23 summary performance measures in FY 2011. This includes 9
of 12 non-homeland security performance measures and 5 of 11 homeland security
performance measures. In FY 2011, the USCG budgeted approximately the same
percentage of its funding for non-homeland security missions (49.6 percent) as
homeland security missions (50.4 percent).

       Resource Hours for Non-Homeland Security and Homeland Security Missions

       Since 2006, the USCG has dedicated the majority of resource hours to homeland
       security missions, except in FY 2010, as illustrated in the following chart.

       Chart 1: Resource Hours – All Missions




       Source: DHS-OIG based on USCG-provided data

       Although there was virtually no gap between homeland security and non-
       homeland security missions in FY 2010, the increase in non-homeland security



www.oig.dhs.gov                               3                                  OIG-12-119
                                      OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


         mission resource hours in FY 2010 was mainly attributable to the Deepwater
         Horizon oil spill and earthquake relief efforts in Haiti.

         According to the USCG’s data, the gap between resource hours for homeland
         security versus non-homeland security missions has narrowed from an
         approximately 10 percent difference in FY 2006 (55 percent of resource hours for
         homeland security missions versus 45 percent for non-homeland security
         missions) to approximately 4 percent in FY 2011 (52 percent of resource hours
         for homeland security missions versus 48 percent for non-homeland security
         missions).

         As illustrated in table 2, the total number of resource hours the USCG dedicates
         to its specific statutory missions continues to decline. In FY 2011, the total
         USCG–reported resource hours dropped to 683,594, which is a decline of
         approximately 8 percent compared to 742,386 hours in FY 2008.

         Table 2. FY 2011 Coast Guard Resource Hours (Rounded)
                                         FY 2008              FY 2009             FY 2010             FY 2011
                                                 % of                % of                 % of                  % of
                                                 Total               Total                Total                 Total
           Missions                   Hours
                                                Mission
                                                          Hours
                                                                    Mission
                                                                               Hours
                                                                                         Mission
                                                                                                   Hours
                                                                                                               Mission
                                                Hours               Hours                Hours                 Hours
Non Homeland Security
Living Marine Resources               105,769    14.2%     94,178     13.1%     93,470    13.2%     93,616      13.7%
Marine Safety                          45,794      6.2%    52,579       7.3%    58,828      8.3%    64,210        9.4%
Marine Environmental Protection         3,441      0.5%     2,949       0.4%    29,039      4.1%     4,682        0.7%
Search and Rescue                      61,321      8.3%    58,607       8.2%    64,273      9.1%    55,934        8.2%
Aids-to-Navigation                    106,638    14.4%    100,904     14.1%     95,268    13.4%     98,819      14.5%
Ice Operations                         11,938      1.6%     8,033       1.1%    11,639      1.6%    10,747        1.6%
                          Sub-Total   334,901    45.2%    317,250     44.2%    352,517    49.7%    328,008      48.1%
Homeland Security
Ports, Waterways, Coastal
Security                              205,715    27.7%    181,264     25.2%    157,427    22.2%    155,969      22.8%
Drug Interdiction                      75,892    10.2%     80,564     11.2%     67,307      9.5%    73,401      10.7%
Migrant Interdiction                   74,918    10.1%     76,100     10.6%     76,848    10.8%     72,213      10.6%

Defense Readiness                      42,688      5.8%    56,128       7.8%    47,030      6.6%    41,424        6.1%
Other Law Enforcement                   8,272      1.1%     6,686       0.9%     8,708      1.2%    12,579        1.8%
                          Sub-Total   407,485    54.9%    400,742     55.7%    357,320    50.3%    355,586      52.0%
 Total                      742,386   100.1%   717,992    99.9%    709,837    100%   683,594   100.1%
Source: DHS-OIG based on USCG-provided data (Percentage totals do not sum to 100% due to rounding)

         The USCG attributes this decline in total resource hours, in part, to the
         decreased availability of assets such as cutters and aircraft due to their age or
         use in training activities. The percentages of total resource hours by statutory


www.oig.dhs.gov                                           4                                                  OIG-12-119
                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


       mission areas from FY 2006 through FY 2011 are illustrated in the following
       chart.

       Chart 2. Percentage of Total Resource Hours by Fiscal Year

                         Defense Readiness                                                    Homeland Security Missions

          Ports, Waterways, Coastal Security


                    Other Law Enforcement


          Undocumented Migrant Interdiction


                     Illegal Drug Interdiction


                    Living Marine Resources                                                   Non-Homeland Security Missions

           Marine Environmental Protection
                                                                                                                       FY11

                              Ice Operations                                                                           FY10

                                                                                                                       FY09
                          Aids-to-Navigation
                                                                                                                       FY08
                              Marine Safety                                                                            FY07

                        Search and Rescue                                                                              FY06

                                                 0%           5%          10%          15%          20%         25%            30%


                                                      Percentage of Total Resource Hours by Fiscal Year

       Source: DHS-OIG based on USCG-provided data

       Resource hours for non-homeland security missions are summarized in appendix
       C, and homeland security missions are summarized in appendix D.

       The USCG’s Mission Performance

       We based the performance portion of our review on the USCG’s December 2011
       internal report titled United States Coast Guard Fiscal Year 2011 Performance
       Report, as well as previous USCG performance reports and OIG reports. Because
       USCG performance reports are internal documents, they contain additional
       management and break-out measures that we did not include in our report. In
       addition, the USCG may add, retire, or change the methodology of certain
       measures from year-to-year. This report includes those measures that the USCG
       considers summary measures. In FY 2011, the USCG used 23 summary
       performance measures, compared with 15 summary performance measures in
       FY 2010. Fourteen of the 15 measures reported in FY 2010 were continued in FY


www.oig.dhs.gov                                                  5                                                     OIG-12-119
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       2011. The methodology for the remaining FY 2010 measure, "Percent Reduction
       in Maritime Terrorism Risk over which the USCG has Influence," was revised,
       resulting in four new ports, waterways, and coastal security measures as
       shown in appendix D.

       The USCG reported that it met or exceeded 14 of 23 summary performance
       measures in FY 2011. This includes 9 of 12 non-homeland security performance
       measures and 5 of 11 homeland security performance measures. Non-homeland
       security performance measures and results are included in appendix C and
       homeland security measures and results are in appendix D. Appendix E contains
       a summary of the USCG’s FY 2011 performance measures for its 11 missions.

       FY 2011 Budget Information

       In FY 2011, the USCG budgeted approximately the same percentage of its
       funding for non-homeland security missions (49.6 percent) as homeland security
       missions (50.4 percent). Based on the USCG’s FY 2012 budget, the historical
       funding gap between non-homeland security and homeland security missions is
       expected to remain narrow. For FY 2012, the USCG budgeted approximately
       51.8 percent of its mission resources for non-homeland security missions and
       48.2 percent for homeland security missions. The largest percentage of the
       USCG’s mission resources will continue to be dedicated to its ports, waterways,
       and coastal security mission, which garnered 22.2 percent of the budget in FY
       2012 and is projected to receive 20.9 percent of the budget in FY 2013.

       Management Comments and OIG Analysis

       The formal reply from the Assistant Commandant for Resources and Chief
       Financial Officer for the Coast Guard is included in appendix B. USCG also
       provided technical comments on our draft report, and we addressed them, as
       appropriate, throughout the report.




www.oig.dhs.gov                           6                                     OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107­
296) by amendment to the Inspector General Act of 1978. This is one of a series of
audit, inspection, and special reports prepared as part of our oversight responsibilities
to promote economy, efficiency, and effectiveness within the Department.

Section 888(f)(1) of the Homeland Security Act of 2002 directs the Inspector General to
conduct an annual assessment of the USCG’s performance of all its missions, with a
particular emphasis on non-homeland security missions. The objective of this review
was to determine the extent to which the USCG is maintaining its historical level of
effort on non-homeland security missions.

We reviewed the following Government Accountability Office (GAO) reports and
testimonies:

   •	 GAO-12-14, Coast Guard: Security Risk Model Meets DHS Criteria, but More
      Training Could Enhance Its Use for Managing Programs and Operations,
      November 2011
   •	 GAO-12-254T, Coast Guard: Observations on Arctic Requirements, Icebreakers,
      and Coordination with Stakeholders, December 2011
   •	 GAO-12-518, Border Security: Opportunities Exist to Ensure More Effective Use of
      DHS’s Air and Marine Assets, March 2012
   •	 GAO-10-411T, Coast Guard: Observations on the Requested Fiscal Year 2011
      Budget, Past Performance, and Current Challenges, February 2010
   •	 GAO-10-268R, Coast Guard Workforce Issues, January 2010

We analyzed the total number of resource hours reported by the USCG prior to
September 11, 2001, through FY 2011. We did not attempt to verify the resource hour
data, nor did we attempt to validate whether the USCG had accurately categorized such
data. We assessed total resource hours for the USCG’s 11 individual missions to identify
the changes in each.

We analyzed performance measures and targets to determine whether the measures
for each of the USCG’s missions had been accomplished. We obtained information on
performance from the USCG’s internal report, United States Coast Guard Fiscal Year
2011 Performance Report, dated December 2011. In addition, we reviewed our Annual
Review of the United States Coast Guard’s Mission Performance (FY 2010), dated
September 2011, for performance measure data prior to FY 2011. We obtained budget
information from DHS’s Budget-in-Brief for FYs 2011- FY 2013.


www.oig.dhs.gov                              7	                                     OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


We conducted this review between April and August 2012 under the authority of the

Inspector General Act of 1978, as amended, and according to the Quality Standards for

Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.





www.oig.dhs.gov                             8                                      OIG-12-119
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Appendix B
Management Comments to the Draft Report

    U.S. Oopartmonl of                    Commandant                             2100 Second Street, s.w., Stop 7245
    Homeland security                     United States Coast Guard              WashingtOn, DC 20593
                                                                                 StaffSymbol:CG-823
                                                                                 Phone: (202) 372-3S33
    United Statas                                                                F",: (202)372-2311
    Coast Guard
                                                                                 7501

                                                                                    AUG 3 1 2012


                                                                      Reply to   Audit Manager,
                                                                      Attn of:   Mark Kulwicki
                                                                                 (202) 372-3533
    To:      Anne L. Richards
             Assistant Inspector General for Audits

    Subj :   DHS orG REPORT ON ANNUAL REVIEW OF THE UNITED STATES COAST
             GUARD'S MISSION PERFORMANCE (FY 2011 )

    Ref:     (a) DHS orG Draft Report dated August 16, 2012

    I. Thank you for the opportunity to review and comment on the Department of Homeland
    Security (DHS) Office of Inspector General's Draft Report 12-028-AUD-USCG entitled,
    "Annual Review of the United States Coast Guard's Mission Perfonnance (FY 2011)."

    2. The United States Coast Guard (USCG) appreciates the efforts of the orG to docwnent
    measures that we can take to enhance the program' s overall effectiveness.

    3. The USCG recommends the following technical comments contained in the enclosure.

    4. If you have any questions, my point of contact is Mr. Mark Kulwicki who can be reached at
    (202) 372-3533.

                                                        #

    Enclosure: (I) USCG technical comments

    Copy: Brooke Bebow, Director,
          Lisa Vonder Haar, Audit Manager
          Stephen Doran, Auditor
          Rkhard Joyce, Program Analyst
          Marisa Coccaro, Referencer




www.oig.dhs.gov                                     9                                                        OIG-12-119
                                        OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


Appendix C
Non-Homeland Security Missions
The FY 2011 non-homeland security mission resource hours totaled 328,008 and
decreased by approximately 7 percent from FY 2010. However, the FY 2011 level
remains at approximately 10 percent above baseline levels. The following graph
illustrates the trend in non-homeland security mission resource hours since 2006
compared with the baseline period.



                                        Non-Homeland Security Resource Hours
                   350,000

                   300,000
  Resource Hours




                   250,000

                   200,000

                   150,000

                   100,000

                    50,000

                        0
                                          2006




                                                   2007




                                                                 2008




                                                                         2009




                                                                                2010




                                                                                       2011
                             Baseline




                                                          Fiscal Year

Source: DHS-OIG based on USCG-provided data

In FY 2011, the USCG reported that it met or exceeded 9 of 12 summary performance
measures for its 6 non-homeland security missions, compared with meeting 7 of 10
summary performance measures in FY 2010. The resource hours and summary
performance measures and results for each non-homeland security mission are
discussed below.

Living Marine Resources

Living marine resources law enforcement is an obligation under the Magnuson-Stevens
Fishery Conservation and Management Act, the Endangered Species Act, and several
other laws for the protection of marine resources. Its core responsibility is to provide
effective and professional enforcement to advance national goals for the conservation,
management and recovery of living marine resources, marine protected species and



www.oig.dhs.gov                                           10                                  OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


national marine sanctuaries and monuments. This includes enforcement of living
marine resource regulations and other activities that strengthen both domestic and
international living marine resources regimes.

Resource Hours: FY 2011 resource hours for living marine resources totaled 93,616.
This is an increase of 0.2 percent from FY 2010, and is higher than the baseline by 2.6
percent.




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG uses the percentage of fishing vessels
observed at-sea complying with domestic regulations as a measure of its effect on
enforcement of U.S. fisheries and protected species regulations. The measure reflects
the percentage of USCG boardings at-sea where no significant violations of domestic
living marine resource regulations were detected. As shown in the chart below, the
USCG reported that it met its single living marine resources performance measure in FY
2011.

                               Living Marine Resources
                Performance Measure – Fishing Regulation Compliance Rate
        FY 2006     FY 2007 FY 2008 FY 2009 FY 2010         FY 2011 FY 2011
         Actual      Actual  Actual    Actual     Actual     Target      Actual
         96.6%       96.2%   95.3%      96.8%     97.2%       96%        97.4%
           X           X       X          X          ��                    ��
        Not Met Not Met Not Met Not Met            Met                    Met�
       Source: DHS-OIG based on USCG-provided data




www.oig.dhs.gov                               11                                    OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Marine Safety

The focus of the USCG’s marine safety mission is the prevention of deaths, injuries, and
property loss. Marine safety responsibilities include ensuring the safe and
environmentally sound operation of millions of recreational vessels and thousands of
U.S. flagged commercial vessels. The USCG develops and enforces Federal marine safety
regulations, certifies and provides credentials to over 218,000 mariners, investigates
commercial marine casualties and shares its findings, and conducts compulsory
inspections, as well as voluntary safety exams.

Resource Hours: The USCG did not report hours for this mission prior to 2005. FY 2011
resource hours for marine safety totaled 64,210 and increased by approximately 9.1
percent from FY 2010.




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG reported that it met three of four
summary performance measures related to marine safety in FY 2011. Federal
regulations require the person in charge of commercial U.S. flagged vessels to notify the
USCG of any loss of life or injury requiring professional medical treatment beyond first
aid. The USCG uses deaths and injuries as a measure of commercial mariner and
passenger safety and the five-year average number of deaths and injuries as an
indicator of long-term performance trends. In FY 2011, the USCG met its target for
commercial mariner deaths and injuries but missed the target for passenger deaths and
injuries as shown below.




www.oig.dhs.gov                               12                                   OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                   Marine Safety
           Performance Measure – Five-Year Average Number of Commercial
                           Mariner Deaths and Injuries
        FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual    Actual   Actual     Actual    Actual   Target   Actual
          502       526      496        498       474      <475      431
                              ��         ��         ��                ��
          N/A       N/A                                       �
                             Met�       Met�      Met�              Met�
       Source: DHS-OIG based on USCG-provided data

                                   Marine Safety
                Performance Measure – Five-Year Average Number of
                      Commercial Passenger Deaths and Injuries
        FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual    Actual   Actual    Actual      Actual    Target  Actual
          216       238      252        238        250       <223    232
                              X          ��         X                 X
          N/A       N/A
                           Not Met      Met�     Not Met�          Not Met�
       Source: DHS-OIG based on USCG-provided data

Federal regulations also require operators or owners of recreational vessels to file a
boating accident report when a person dies or disappears from the vessel under certain
circumstances. The USCG uses deaths and injuries as a measure of marine safety for the
recreational boating segment of the American maritime community, and a five-year
average of these as an indicator of long-term performance trends. The USCG reported
that it met its target for this measure in FY 2011.

                                   Marine Safety
                Performance Measure – Five-Year Average Number of
                      Recreational Boating Deaths and Injuries
        FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual    Actual   Actual     Actual    Actual      Target Actual
         4,366     4,249     4,147      4,150     4,091      <4,115 3,904
                               ��         ��        ��          �     ��
          N/A       N/A
                              Met�       Met�      Met�              Met�
        Source: DHS-OIG based on USCG-provided data

In FY 2011, the USCG added a new long-term performance measure for the five-year
average number of commercial and recreational deaths and injuries. The target for this
measure was met.




www.oig.dhs.gov                              13                                 OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                   Marine Safety
                Performance Measure – Five-Year Average Number of
                  Commercial and Recreational Deaths And Injuries
        FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual    Actual   Actual    Actual     Actual    Target Actual
          N/A       N/A      N/A        N/A       N/A      <4,813 4,567
                                                              �     ��
          N/A�      N/A      N/A�       N/A�      N/A�
                                                                   Met�
       Source: DHS-OIG based on USCG-provided data

Marine Environmental Protection

The marine environmental protection mission focuses on minimizing oil and hazardous
substance effect on human health, the environment, and the marine transportation
system. The USCG regulates the handling of oil, hazardous substances, and other
shipboard wastes to prevent their discharge into U.S. or international waterways, stop
unauthorized ocean dumping, reduce ship-based air emissions, and avert the
introduction of invasive species. The USCG is the lead Federal agency for directing the
removal and mitigation of oil spills from the waters and adjoining shorelines of the
coastal zone.

Resource Hours: Marine environmental protection resource hours totaled 4,682 in FY
2011. This represents a decrease of 83.9 percent from FY 2010 and is attributable to the
reduction of resource hours necessary for the Deepwater Horizon oil spill in the Gulf of
Mexico.




Source: DHS-OIG based on USCG-provided data




www.oig.dhs.gov                               14                                  OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Performance Measures and Results: Federal regulation requires vessel or facility
operators to report the discharge of any hazardous substance that equals or exceeds
reportable quantities and requires the reporting of any discharge of oil or oil products
that cause a sheen, discoloration, sludge, or emulsion on or below the surface of any
navigable waterway of the United States. The USCG uses the number of chemical
discharge incidents and the number of oil spills greater than 100 gallons as proxy
indicators of marine environmental protection, and normalizes five-year averages of
these as indicators of long-term trends. In FY 2011, the USCG reported that it met the
target for “Average Number of Chemical Discharge Incidents in the Maritime
Environment,” which was previously reported as “5-Yr Average Chemical Discharge
Incidents per 100 Million Short Tons Shipped.”

                      Marine Environmental Protection
        Performance Measure – Average Number of Chemical Discharge
                   Incidents in the Maritime Environment
          FY      FY        FY        FY       FY      FY      FY
        2006     2007     2008       2009    2010     2011   2011
       Actual   Actual Actual Actual Actual          Target Actual
         27.8    24.4      19.8      18.7     18.1   <22.0    15.0
                             ��       ��       ��       �      ��
         N/A     N/A
                           Met�      Met�     Met�            Met�
       Source: DHS-OIG based on USCG-provided data

USCG also reported that it met the target for “Average Number of Oil Spills in the
Maritime Environment,” which was previously reported as “5-Yr Average Oil Spills > 100
Gallons per 100 Million Short Tons Shipped.”

                Marine Environmental Protection Performance Measure
                Average Number of Oil Spills in the Maritime Environment
        FY 2006    FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual     Actual   Actual      Actual      Actual    Target    Actual
          14.3       13.9     13.2        12.3        11.5      <11.6     10.2
                               ��           ��         ��          �       ��
          N/A        N/A
                              Met�         Met�       Met�                Met�
       Source: DHS-OIG based on USCG-provided data

Search and Rescue

USCG strives to minimize lives lost, injury, and property loss or damage by rendering aid
to those in distress in the maritime environment and elsewhere as called upon. The
search and rescue mission is accomplished through resource readiness, distress
monitoring and communication, search planning, on-scene operations, and domestic
and international partnerships.


www.oig.dhs.gov                              15                                    OIG-12-119
                                              OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


Resource Hours: Search and rescue is a demand-driven mission. Requirements for
search and rescue increase or decrease relative to the number of people requiring the
USCG’s assistance. Resource hours in FY 2011 totaled 55,934 and decreased
approximately 13 percent from FY 2010.


                                                       Search and Rescue Resource Hours
                       90,000
                       80,000
    Resource Hours




                       70,000
                       60,000
                       50,000
                       40,000
                       30,000
                       20,000
                       10,000
                            0
                                                2006



                                                            2007



                                                                           2008



                                                                                      2009



                                                                                             2010



                                                                                                    2011
                                   Baseline




                                                                        Fiscal Year
Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: USCG met the FY 2011 target for percent of
people in imminent danger saved in the maritime environment was not met. Though
this year’s performance is below the overall target, it is more than the 74.4 percent level
posted in FY 2010. In FY 2011, the USCG saved 3,804 lives in 20,510 cases with 732 lives
lost and 390 lives unaccounted for. This total excluded outlier cases with more than 10
lives at risk. Other than raw numbers of lives saved and lost, there is no clear indication
of the drivers that led to this decrease. The USCG is conducting further analysis is in
progress to identify any systemic issues. Additionally, uncontrollable variables such as
weather, location, incident severity, and life saving devices on board continue to
influence the number and outcome of search and rescue incidents.


                                            Search and Rescue
                     Performance Measure – Percent of People in Imminent Danger Saved
                                      in the Maritime Environment
                       FY       FY      FY        FY        FY         FY        FY
                      2006    2007     2008      2009      2010       2011     2011
                     Actual Actual Actual Actual          Actual     Target   Actual
                      76%     76.6%    76.8%     77.3%    74.4%      100%     77.3%
                        ��      ��       ��        ��        X                   X
                      Met�     Met�     Met�      Met� Not Met�              Not Met�
                     Source: DHS-OIG based on USCG-provided data


www.oig.dhs.gov                                                    16                                      OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


The FY 2011 target for percent of time rescue assets are on-scene within 2 hours was
not met. However, overall performance is in line with the USCG’s expectations based on
placement of resources and proximity to shore of the majority of search and rescue
incidents and shows consistent performance over the last six years. This measure has
been adjusted to exclude cases in which an operational decision was made to delay a
response. Certain determining factors such as weather, resource availability, and risk
assessment delay response time.

                              Search and Rescue
        Performance Measure – Percent of Time Rescue Assets are On-Scene
                                within 2 Hours
          FY      FY       FY       FY         FY        FY         FY
         2006    2007     2008     2009       2010      2011       2011
        Actual Actual Actual Actual          Actual    Target     Actual
        93.7%    94.3%   93.3%     94.0%     93.3%      100%      93.1%
          ��       ��      ��        ��        ��                    X
         Met�     Met�    Met�      Met�      Met�               Not Met�
       Source: DHS-OIG based on USCG-provided data

Aids-to-Navigation

USCG minimizes disruptions to maritime commerce by assessing and mitigating risks to
safe navigation. It provides and maintains more than 51,000 buoys, beacons, lights and
other aids to mark channels and denote hazards.

Resource Hours: FY 2011 resource hours totaled 98,819 and increased approximately
3.7 percent from FY 2010. This is an approximately 12 percent decrease from the
baseline level.




www.oig.dhs.gov                              17                                 OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG reported that it met its FY 2011 target
for the availability of maritime navigation aids for the fifth consecutive year.

                                  Aids-to-Navigation
              Performance Measure – Availability of Maritime Navigation Aids
         FY 2006     FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
          Actual      Actual   Actual     Actual     Actual     Target     Actual
          96.8%       98.0%    98.3%      98.0%       98.5%     97.5%      98.5%
            X           ��       ��          ��         ��         �          ��
         Not Met       Met�     Met�       Met�        Met�                  Met�
       Source: DHS-OIG based on USCG-provided data

In FY 2011, the USCG reported that it met its target for the average number of
navigational accidents. This is the first time this measure was met in the past six years.

                                   Aids-to-Navigation
             Performance Measure – Average Number of Navigational Accidents
         FY 2006      FY 2007     FY 2008     FY 2009   FY 2010   FY 2011   FY 2011
          Actual       Actual      Actual      Actual    Actual    Target    Actual
          1,765        1,823       1,857       1,878     1,878     ������    1,945
            X            X           X           X         X          �       ��
         Not Met      Not Met     Not Met     Not Met   Not Met              Met�
       Source: DHS-OIG based on USCG-provided data




www.oig.dhs.gov                                18                                     OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Ice Operations

This mission supports winter commerce and prevents and responds to ice that causes
flooding. These activities are essential to winter and spring commerce and the safety of
waterside communities on the Great Lakes, in New England and on the Hudson River,
and occasionally in the mid-Atlantic.

Resource Hours: In FY 2011, resource hours totaled 10,747 and decreased
approximately 7.7 percent from FY 2010, which is approximately 10 percent lower than
the baseline level.




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG reported that it met its FY 2011 target
for the number of days critical waterways are closed to commerce due to ice. Domestic
icebreakers on the Great Lakes assisted over 1,700 commercial vessel transits carrying
$300 million in bulk commodities. Favorable environmental conditions, continued
partnership with the Canadian Coast Guard, and effective employment of domestic
icebreaking assets contributed to achieving the performance target.

                                   Ice Operations
        Performance Measure – Number of Days Critical Waterways Are Closed to
                               Commerce Due to Ice
        FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual   Actual    Actual     Actual     Actual    Target     Actual
                                                           2 avg. &
           0        0         0          0          6                    0
                                                           8 severe
           ��       ��        ��         ��         X          �         ��
          Met�     Met�      Met�       Met�     Not Met�               Met�
       Source: DHS-OIG based on USCG-provided data




www.oig.dhs.gov                               19                                  OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix D
Homeland Security Missions

The FY 2011 homeland security mission resource hours totaled 355,586 and decreased
by approximately 0.5 percent from FY 2010. Between FY 2006 and FY 2011, total
resource hours for homeland security missions were the highest in FY 2007. However,
the FY 2011 level remains at approximately 91 percent above baseline levels, as
depicted in the following graph.




Source: DHS-OIG based on USCG-provided data

In FY 2011, the USCG reported that it met or exceeded 5 of 11 summary performance
measures for its 5 homeland security missions, compared with meeting 2 of 5 summary
performance measures in FY 2010. The resource hours and performance measures and
results for each non-homeland security mission are summarized below.

Ports, Waterways, and Coastal Security

The ports, waterways, and coastal security mission aims to deny terrorists the use and
exploitation of the maritime domain and marine transportation system as a means for
attacks on U.S. territory, population centers, vessels, and maritime critical infrastructure
and key resources. This mission includes preparedness, planning and exercises,
antiterrorism and counterterrorism activities, and initial recovery efforts if attacks are
successful.




www.oig.dhs.gov                               20                                     OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Resource Hours: In FY 2011, resource hours for ports, waterways, and coastal security
totaled 155,969, which is a decrease of 0.9 percent from FY 2010.




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: USCG reported that it met three of its six FY 2011
targets for ports, waterways, and coastal security. In FY 2011, the USCG added two new
summary measures related to compliance with security regulations and significantly
updated the methodology for the FY 2010 summary measure, "Percent Reduction in
Maritime Terrorism Risk over which the USCG has Influence," resulting in four maritime
security risk measures as shown in the following charts. The USCG improved and
created a new baseline for the maritime security risk measures in FY 2010, thus FY 2011
results should not be compared to previous years.

The revised maritime security risk measures are risk-based outcome measures that
begin with an assessment of likely high-consequence maritime terrorist attack
scenarios. Threat, vulnerability, and consequence levels are estimated for each
scenario, which generates a proxy (index) value of "raw risk" that exists in the maritime
domain. Next, the USCG interventions (security and response operations, regime and
awareness activities) for the fiscal year are scored against the scenarios with regard to
the decreases in threat, vulnerability, and consequence that each has been estimated to
have afforded. The resulting measures are proxy measures of performance.

As depicted below, the USCG reported that it met its FY 2011 target for “Percent
Reduction of all Maritime Security Risk Subject to USCG Influence.”




www.oig.dhs.gov                               21                                   OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                          Ports, Waterways, and Coastal Security
           Performance Measure – Percent Reduction of all Maritime Security Risk
                                 Subject to USCG Influence
         FY 2006    FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
          Actual     Actual     Actual      Actual    Actual    Target     Actual
           N/A        N/A         N/A        N/A       N/A       44%        44%
            ��         ��          ��         ��        ��                    ��
                                                                   �
           Met�       Met�        Met�       Met�      Met�                 Met�
       Source: DHS-OIG based on USCG-provided data

USCG exceeded its FY 2011 target for Percent Reduction of all Maritime Security Risk
Resulting from USCG Consequence Management.

                          Ports, Waterways, and Coastal Security
           Performance Measure – Percent Reduction of Maritime Security Risk
               Resulting from U.S. Coast Guard Consequence Management
         FY 2006     FY 2007     FY 2008    FY 2009   FY 2010    FY 2011    FY 2011
          Actual      Actual      Actual     Actual    Actual     Target     Actual
           N/A         N/A         N/A        N/A       N/A        3%         4%
            ��          ��          ��         ��        ��                    ��
                                                                     �
           Met         Met�        Met�       Met�      Met�                  Met�
       Source: DHS-OIG based on USCG-provided data

USCG did not meet its target for “Percent Reduction of Maritime Security Risk Resulting
from USCG Efforts to Prevent a Terrorist Entering the U.S. via Maritime Means.” This is
attributable to lower effectiveness judgments for the Maritime Security Response Team
due to the loss of dedicated airlift and the suspension of hook-and-climb training.
Additionally, major cutter capacity decreased due to the decommissioning of one High
Endurance Cutter and an overall reduction of major cutter resource hours.

                           Ports, Waterways, and Coastal Security
            Performance Measure – Percent Reduction of Maritime Security Risk
           Resulting from USCG Efforts to Prevent a Terrorist Entering the U.S. via
                                       Maritime Means
         FY 2006      FY 2007     FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
          Actual       Actual      Actual     Actual    Actual     Target     Actual
           N/A          N/A         N/A        N/A       N/A        52%         43%
            ��           ��          ��         ��        ��                      ��
                                                                      �
           Met          Met�        Met�       Met�      Met�                Not Met�
       Source: DHS-OIG based on USCG-provided data

USCG missed its target for “Percent Reduction of Maritime Security Risk Resulting from
USCG Efforts to Prevent a Weapon of Mass Destruction from Entering the United States


www.oig.dhs.gov                              22                                         OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


via Maritime Means” by one percentage point. This is attributable to lower
effectiveness judgments for the Maritime Security Response Team due to loss of
dedicated airlift and the challenges of identifying a broad range of Weapons of Mass
Destruction amongst the volume of legitimate shipping cargo. Additionally, major cutter
capacity decreased due to the decommissioning of one High Endurance Cutter and an
overall reduction of major cutter resource hours.

                           Ports, Waterways, and Coastal Security
           Performance Measure – Percent Reduction of Maritime Security Risk
        Resulting from USCG Efforts to Prevent a Weapon of Mass Destruction from
                            Entering the U.S. via Maritime Means
        FY 2006      FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual       Actual      Actual     Actual     Actual    Target  Actual
          N/A          N/A         N/A        N/A        N/A       29%     28%
           ��           ��          ��          ��        ��                 ��
                                                                     �
          Met�         Met�        Met�       Met�       Met�            Not Met�
       Source: DHS-OIG based on USCG-provided data

USCG exceeded its FY 2011 target for “Annual Maritime Transportation Security Act
Facility Compliance Rate with Transportation Worker Identification Credential
Regulations.”

                        Ports, Waterways, and Coastal Security
       Performance Measure – Annual Maritime Transportation Security Act Facility
          Compliance Rate with Transportation Worker Identification Credential
                                       Regulations
        FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual    Actual      Actual     Actual   Actual      Target    Actual
          N/A       N/A         N/A        N/A     100%         85%       99%
                                                      ��                    ��
          N/A���    N/A���      N/A���     N/A���                 �
                                                    Met�                  Met�
       Source: DHS-OIG based on USCG-provided data

USCG missed its target for “Percent of Maritime Facilities in Compliance with Security
Regulations” by only one-tenth of one percent. The USCG has focused the use of its
personnel resources to conduct Maritime Transportation Security Act compliance exams
at waterfront facilities that are at higher risk for a transportation security incident. By
increasing partnerships with these facilities, 99.9 percent of regulated facilities did not
have serious deficiencies warranting a notice of violation or civil penalty in FY 2011.




www.oig.dhs.gov                              23                                     OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                            Ports, Waterways, and Coastal Security
         Performance Measure – Percent Of Maritime Facilities in Compliance with
                                 Security Regulations
         FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
          Actual    Actual    Actual     Actual     Actual      Target    Actual
           N/A       N/A       N/A         N/A       N/A         100%     99.9%
                                                                             ��
           N/A���    N/A���    N/A���      N/A���    N/A���        �
                                                                         Not Met�
       Source: DHS-OIG based on USCG-provided data

Drug Interdiction

USCG’s drug interdiction efforts support national strategies to disrupt the market for
illegal drugs and prevent transnational threats from reaching the United States. The
USCG is the lead Federal agency for drug interdiction on the high seas and shares the
lead for drug interdiction in the territorial seas of the U.S. with Customs and Border
Protection. The USCG coordinates with its interagency partners to deter illicit drug
trafficking including the Department of Defense, Department of Justice, Department of
State, and other components within DHS.

Resource Hours: FY 2011 resource hours totaled 73,401 and increased by
approximately 9 percent from FY 2010, but are about 40 percent below baseline levels.




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG uses the interagency Consolidated
Counter Drug Database as its main source for tracking cocaine movement estimates.



www.oig.dhs.gov                               24                                    OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


The one performance measure related to Drug Interdiction, “Removal Rate for Cocaine
from Non-commercial Vessels in Maritime Transit Zone,” was not met in FY 2011.
According to the USCG, the reasons for not meeting this target can be attributed to
reduced asset and resource availability, smaller average load sizes of cocaine, and
increasingly sophisticated criminal organizations.

                                   Drug Interdiction
          Performance Measure – Removal Rate for Cocaine from Non-commercial
                           Vessels in Maritime Transit Zone
        FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011              FY 2011
         Actual    Actual   Actual     Actual      Actual    Target   Actual
          N/A       N/A      N/A       15.0%       13.5%     15.5%    11.6%
                                          X          X                  X
          N/A       N/A      N/A
                                      Not Met Not Met                Not Met
       Source: DHS-OIG based on USCG-provided data

Migrant Interdiction

USCG migrant interdiction policy and operations are designed to provide effective law
enforcement presence at sea and achieve three main objectives: (1) deter
undocumented migrants and transnational human smugglers from using maritime
routes to enter the U.S., (2) detect and interdict undocumented migrants and human
smugglers far from the U.S. border, and (3) expand USCG participation in multi-agency
and bi-national border security initiatives. While the USCG leads the interdiction
mission on the high seas, it partners with Customs and Border Protection and
Immigration and Customs Enforcement for shore-side interdiction operations.

Resource Hours: Migrant interdiction resource hours remain approximately 144
percent above baseline levels. In FY 2011 resource hours totaled 72,213 and decreased
approximately 6.0 percent from FY 2010 to FY 2011.




www.oig.dhs.gov                              25                                 OIG-12-119
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security




       Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: According to the USCG, the number of
undocumented migrants attempting to enter the U.S. remained low in FY 2011
compared to numbers observed over the last decade, due in part to a slumping U.S.
economy, successful prosecution of smugglers, effective bilateral cooperation, and use
of biometrics. The USCG reported that it met one of its two performance measures
related to migrant interdiction in FY 2011. Although the USCG did not meet the target
for “Percentage of Undocumented Migrants who Attempt to Enter the United States via
Maritime Routes that are Interdicted,” the actual result of 72.8 percent was an
improvement over FY 2010’s 64.5 percent. This measure includes migrants who are
interdicted by foreign counterparts of the USCG, many of whom have fewer resources
than the USCG.

                                   Migrant Interdiction
           Performance Measure – Percentage of Undocumented Migrants who
        Attempt to Enter the United States Via Maritime Routes that are Interdicted
        FY 2006     FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
         Actual      Actual     Actual     Actual     Actual    Target      Actual
          N/A        65.2%      62.7%      84.4%      64.5%     73.9%       72.8%
                       ��         ��          ��        ��                     ��
          N/A�                                                     �
                    Not Met� Not Met�       Met�     Not Met�              Not Met�
       Source: DHS-OIG based on USCG-provided data

As shown in the table below, the USCG exceeded its target for the “Percent of
Undocumented Migrants who Attempt to Enter the United States via Maritime Routes
Interdicted by the Coast Guard.”


www.oig.dhs.gov                              26                                       OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



                                     Migrant Interdiction
        Performance Measure – Percent of Undocumented Migrants who Attempt to
         Enter the United States via Maritime Routes Interdicted by the Coast Guard
         FY 2006     FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
          Actual      Actual     Actual     Actual      Actual    Target     Actual
           N/A        42.1%       46.9%     37.5%       44.7%     43.0%      51.7%
                                    ��         ��         ��                   ��
           N/A�        N/A�                                          �
                                Not Met� Not Met�        Met�                 Met�
       Source: DHS-OIG based on USCG-provided data

Defense Readiness

The USCG maintains a level of readiness and training that allows for the immediate
integration with Department of Defense forces for peacetime operations or during
times of war. This supports U.S. national interests abroad, as well as facilitating support
to DHS for the integration of Homeland Defense and Homeland Security.

Resource Hours: In FY 2011, resource hours for Defense Readiness totaled 41,424 and
were still above the baseline, although resource hours decreased by 11.9 percent from
FY 2010 to FY 2011.




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG did not meet its overall target of 38.1
percent defense readiness for the year. The declining readiness of the USCG’s High
Endurance Cutter fleet continues to present significant challenges to mission



www.oig.dhs.gov                               27                                      OIG-12-119
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


performance. High Endurance Cutter readiness is being addressed by the USCG’s
acquisition of the National Security Cutter.

                                   Defense Readiness
           Performance Measure – Defense Readiness Assessment of all USCG High-
                  Endurance Cutters, Patrol Boats, and Port Security Units
          FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
           Actual    Actual    Actual       Actual    Actual     Target     Actual
            N/A       N/A        N/A         N/A      24.1%      38.1%      25.1%
                                                         ��                   ��
            N/A��     N/A�       N/A�        N/A�                    �
                                                     Not Met�              Not Met�
        Source: DHS-OIG based on USCG-provided data

Other Law Enforcement

The other law enforcement mission orchestrates the enforcement of regulations on
foreign fishing vessels. This enforcement takes two forms: the first is the deterrence,
detection, and interdiction of illegal incursions into the U.S. exclusive economic zone by
foreign fishing vessels. 1 The protection of the U.S. exclusive economic zone from
incursions by foreign fishing vessels contributes to a fundamental USCG maritime
security objective to protect our Nation’s renewable natural resources. The second part
of the other law enforcement mission is to ensure compliance with international
agreements for the management of living marine resources. This is primarily
accomplished through enforcement on foreign fishing vessels of conservation and
management measures created by regional fishery management organizations.

Resource Hours: In FY 2011, resource hours for the other law enforcement mission
totaled 12,579, which is an increase of 44.5 percent from FY 2010. According to the
USCG, this increase in resource hours was due to increased patrols for illegal,
unregulated, and unreported fishing activity.




1
 The exclusive economic zone is the zone where the U.S. and other coastal nations have jurisdiction over
economic and resource management. The exclusive economic zone includes waters three to 200 miles
offshore (or nine to 200 miles offshore in western Florida and Texas).


www.oig.dhs.gov                                    28                                            OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security




Source: DHS-OIG based on USCG-provided data

Performance Measures and Results: The USCG uses the number of detected incursions
into the U.S. Exclusive Economic Zone by foreign fishing vessels as a measure of its
performance. In FY 2011, there were 122 detected incursions of foreign fishing vessels
into the U.S. Exclusive Economic Zone, which met the performance target of fewer than
180 incursions.

                               Other Law Enforcement
         Performance Measure – Number of Detected Incursions of Foreign Fishing
                            Vessels violating U.S. Waters
         FY 2006   FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2011
          Actual    Actual    Actual     Actual     Actual   Target      Actual
           164       126        81        112        82       <180         122
            ��        ��        ��          ��        ��                    ��
                                                                 �
           Met�      Met�      Met�       Met�       Met�                 Met�
       Source: DHS-OIG based on USCG-provided data




www.oig.dhs.gov                               29                                  OIG-12-119
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix E
FY 2011 Performance Measure Summary
                                                                                                             Not
          Mission                                           Measure                                    Met
                                                                                                             Met
 Non-Homeland Security Missions
                              Percentage of People in Imminent Danger Saved in the Maritime
                                                                                                              X
     Search and Rescue        Environment
                              Percent of Time Rescue Assets are On-Scene within 2 Hours                       X
                              Availability of Maritime Navigation Aids                                  X
     Aids-to-Navigation
                              Average Number of Navigational Accidents                                  X
       Ice Operations         Number of Days Critical Waterways Are Closed to Commerce Due to Ice       X
  Living Marine Resources     Fishing Regulation Compliance Rate                                        X
                              5-Yr Average Number of Commercial and Recreational Deaths and
                                                                                                        X
                              Injuries
       Marine Safety          5-Yr Average Number of Commercial Mariner Deaths and Injuries             X
                              5-Yr Average Number of Commercial Passenger Deaths and Injuries                 X
                              5-Yr Average Number of Recreational Boating Deaths and Injuries           X
                            Average Number of Chemical Discharge Incidents in the Maritime
   Marine Environmental                                                                                 X
                            Environment
        Protection
                            Average Number of Oil Spills in the Maritime Environment                    X
 Total Non-Homeland Security Performance Measures                                                       9     3
 Homeland Security Missions
                             Percentage Reduction of all Maritime Security Risk Subject to USCG
                                                                                                        X
                             Influence
                             Percent Reduction of Maritime Security Risk Resulting from USCG
                                                                                                        X
                             Consequence Management
                             Percent Reduction of Maritime Security Risk Resulting from USCG Efforts
                                                                                                              X
   Ports, Waterways, and     to Prevent a Terrorist Entering the U.S. via Maritime Means
      Coastal Security       Percent Reduction of Maritime Security Risk Resulting from USCG Efforts
                             to Prevent a Weapon of Mass Destruction from Entering the U.S. via               X
                             Maritime Means
                             Annual MTSA Facility Compliance Rate with Transportation Worker
                                                                                                        X
                             Identification Credential Regulations
                             Percent of Maritime Facilities In Compliance with Security Regulations           X
                             Removal Rate for Cocaine from Non-commercial Vessels in Maritime
     Drug Interdiction                                                                                        X
                             Transit Zone
                             Percentage of Undocumented Migrants who Attempt to Enter the
                                                                                                              X
                             United States Via Maritime Routes that are Interdicted
    Migrant Interdiction
                             Percent of Undocumented Migrants who Attempt to Enter the U.S. by
                                                                                                        X
                             Maritime Routes Interdicted by the USCG
                             Defense Readiness Assessment of all USCG High-Endurance Cutters,
    Defense Readiness                                                                                         X
                             Patrol Boats, and Port Security Units
                             Number of Detected Incursions of Foreign Fishing Vessels Violating U.S.
  Other Law Enforcement                                                                                 X
                             Waters
 Total Homeland Security Performance Measures                                                           5     6
  Total USCG Performance Measures                                                                      14     9
Source: DHS-OIG based on USCG-provided data




www.oig.dhs.gov                                       30                                                OIG-12-119
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix F
Major Contributors to This Report
Brooke Bebow, Director
Lisa Vonder Haar, Audit Manager
Stephen Doran, Auditor
Richard Joyce, Program Analyst
Marisa Coccaro, Referencer




www.oig.dhs.gov                        31                    OIG-12-119
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix G
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer

United States Coast Guard

Commandant
Assistant Commandant for Resources and Chief Financial Officer
USCG Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                              32                         OIG-12-119
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
